UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




            Office of Appeals Survey


                Report No. OIG-AMR-53-06-03




                                              September 2006
INSPECTOR GENERAL




      NATIONAL LABOR RELATIONS BOARD
                        WASHINGTON, DC 20570

September 12, 2006

I hereby submit the Office of Appeals Survey, Report No. OIG-AMR-53-06-03.
This survey was conducted to gather information about the Office of Appeals to
determine functions performed by the office and internal controls that
management exercises in carrying out its mission.

We did not identify potentially significant structural or procedural issues
within the Office of Appeals and concluded that a more detailed review of the
Office of Appeals was not necessary a t this time. The procedures for processing
cases include operating efficiencies such a s providing decision-making
authority to the lowest possible level.

Cases received, cases closed, and cases pending a t year-end decreased
significantly during Fiscal Year (FY) 2005. The time to process cases has
decreased sharply since FY 2000. The percentage of cases sustained has
ranged from 1 to 1.4 percent since FY 2000. Sustained appeals were processed
in a median of 83 days and all appeals were processed in a median of 18 days.

The report used to calculate the Government Performance and Results Act
statistic for the Office of Appeals understated the number of days to process
sustained appeals in a few cases, but did not affect the overall calculation. In
these cases, the time to process the original denial was excluded.

An exit conference was held on August 2, 2006, with representatives of the
Office of Appeals. A draft report was sent to the Office of Appeals Director on
August 16, 2006, for review and comment. The Director agreed with our
findings and noted that the report calculating the statistic was corrected. The
response is included a s an appendix to this report.



                                      ane E. Altenhofe
                                     Inspector General
                                       TABLE OF CONTENTS

BACKGROUND ......................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY ........................................2

FINDINGS ..............................................................................................3

CASE STATISTICS .................................................................................3

        Appeals Received ..........................................................................3
        Appeals Closed .............................................................................4
        Processing Timeliness ...................................................................5
        Pending Cases ..............................................................................5

RESULTS ACT........................................................................................6

        Calculation ...................................................................................6
        Performance Measure ...................................................................7

ATTACHMENT - APPEALS PROCESS......................................................8

APPENDIX ...............................................................................................

        Memorandum from the Director, Office of Appeals, Comments on Draft
        Report "Office of Appeals Survey" (OIG-AMR-53)
                                 BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and airline
industries. The Fiscal Year (FY) 2006 appropriation authorizes 1,840 full-time
equivalents (FTE) that are located at Headquarters, 51 field offices throughout
the country, and 3 satellite offices for administrative law judges. NLRB
received an appropriation of $252,268,000 for FY 2006, less an across-the-
board rescission of 1 percent, leaving a net spending ceiling of $249,745,320.

Section 102.19 of the NLRB's Rules and Regulations states that if, after an
unfair labor practice (ULP) charge is filed, the Regional Director (RD) declines to
issue a complaint, or, having withdrawn a complaint, refuses to reissue it, the
RD shall advise the parties in writing, accompanied by a simple statement of
the grounds for the action. The person making the charge may obtain a review
of the action by filing an appeal with the General Counsel within 14 days of the
RD's written notice, setting forth the grounds for the appeal. The General
Counsel may sustain the RD's refusal to issue or reissue complaint or may
direct the RD to take further actions.

The Division of Enforcement Litigation's Office of Appeals reviews appeals of
the RD's refusals to issue or reissue complaints on ULP charges and
recommends the action to be taken by the General Counsel. This includes
cases that are dismissals, Collyer deferrals, and informal settlements. The
Office of Appeals is also responsible for reviewing compliance determinations
and appeals of refusals to provide documents under the Freedom of
Information Act processed by various General Counsel offices. In addition,
pursuant to a request, the Office of Appeals hears informal oral presentations
supporting or opposing the appeal. A description of the Office of Appeals'
processes is included as an attachment to this report.

As of July 2006, the Office of Appeals consisted of a Director, Deputy Director,
7 supervisors, 18 attorneys, and 9 support staff. Staffing decreased by
approximately 19 percent from FY 2000 to FY 2002, and has remained steady
through FY 2005. The Office of Appeals incurred personnel costs of
approximately $3.9 million during FY 2005.

During FY 2005, the Office of Appeals received 2,465 appeals from RD refusals
to issue complaint and disposed of 2,659 appeals. Thirty-four appeals were
sustained. Sustained appeals were processed in a median of 83 days and all
appeals were processed in a median of 18 days.




                                        1
                 OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this survey was to gather information about the Office of
Appeals to determine functions performed by the office and internal controls
that management exercises in carrying out its mission.

We reviewed laws, regulations, and internal guidance relevant to the Office of
Appeals to identify program requirements and procedures for processing
appealed cases. We interviewed Office of Appeals managers for clarification
and interviewed other staff to identify potential operating efficiencies. We also
interviewed staff in the Division of Operations-Management (Operations-
Management) to identify possible program improvements.

We obtained reports from the Appeals Case Tracking System (ACTS) for cases
received, closed, pending, and sustained, and evaluated trends for the period
from FY 1996 to FY 2005. We obtained data from ACTS for cases received from
October 1, 1996 to September 30, 2005. We computed statistics and time lags
for cases pending as of September 30, cases closed, and cases received from FY
2000 to FY 2005. We examined the percentage of cases sustained by Regional
Office to determine whether certain Regional Offices had a disproportionate
number of cases sustained.

We evaluated the Agency's Government Performance and Results Act (Results
Act) measure for ULP appeals and recalculated the measure for FY 2005. We
obtained staffing data on the Office of Appeals from FY 2000 through FY 2005
and compared the staffing trends to case intake and cases pending at the end
of the fiscal year.

We selected a judgmental sample of 25 appeals received in FY 2005. We tested
the data accuracy of nine data elements in ACTS to determine whether the
Office of Appeals maintained proper documentation and case actions were
properly approved and documented.

This survey was performed in accordance with generally accepted government
auditing standards during the period of May through July 2006 at NLRB
Headquarters in Washington, D.C.




                                        2
                                   FINDINGS

We did not identify potentially significant structural or procedural issues
within the Office of Appeals and concluded that a more detailed review of the
Office of Appeals was not necessary at this time. The procedures for processing
cases include operating efficiencies such as providing decision-making
authority to the lowest possible level. None of the nine data elements tested
had an error rate greater than 10 percent, a rate we consider significant. The
proper documentation was generally found in the case files.

The number of cases received by the Office of Appeals decreased in FY 2005.
The decrease was proportionate to the number of cases closed in the Regional
Offices. During this period, the average time to process a case and the number
of cases pending at the end of the year also declined.

The report used to calculate the Results Act statistic for the Office of Appeals
understated the number of days to process sustained appeals in a few cases,
but did not affect the overall calculation. In these cases, the time to process
the original denial was excluded.


CASE STATISTICS

Cases received, cases closed, and cases pending at year-end decreased
significantly during FY 2005. The time to process cases has decreased sharply
since FY 2000. The percentage of cases sustained has ranged from 1 to 1.4
percent since FY 2000.

In July 2006, the office had a staff of 36 people. The Agency's FY 2007
Performance Budget Request to the Office of Management and Budget
contained conflicting information regarding Office of Appeals staffing. One
budget schedule allocated 32.6 FTE to the Office of Appeals, but another
schedule allocated 36 FTE. Personnel in the Budget Branch said that the
Agency projected 35 FTE for FY 2007. If the Office of Appeals' caseload
continues to decline, the Agency will need to consider further decreases in
staffing levels.

Appeals Received

The Office of Appeals has no control over its case intake, which is based on the
actions of the charging party. The number of appeals received is directly
proportionate to the number of cases closed by the Regional Offices, as shown
on the chart on the next page.




                                        3
                              ULP Cases Closed and Appeals Received by Fiscal Year
                    34,000                                                                                3,400
 ULP Cases Closed




                                                                                                                  Appeals Received
                    32,000                                                                                3,200

                    30,000                                                                                3,000

                    28,000                                                                                2,800

                    26,000                                                                                2,600

                    24,000                                                                                2,400
                              1996    1997   1998    1999    2000    2001   2002   2003   2004    2005

                                       ULP Cases Closed                      Appeals Received




Appeals Closed

The Office of Appeals closes most cases without direct involvement from the
General Counsel. Appeals that have the potential to be sustained or that
involve novel or high profile cases are decided after an agenda meeting is held
with the General Counsel. The following chart shows the number of appeals
closed over the past 10 years.


                                             Appeals Closed by Fiscal Year

           3,500

           3,000
                                             3,397
                             3,104                                                           3,221
                                                     3,089
           2,500                     2,663                   2,758 2,817 2,881 2,860                     2,659
           2,000
                             1996    1997    1998    1999     2000    2001    2002    2003       2004    2005



The number of appeals sustained generally decreased from FY 1996 through
FY 2002. Since then, either 33 or 34 appeals were sustained each year. The
chart on the next page shows the number of sustained cases over the last 10
fiscal years.




                                                                4
                       Sustained Cases by Fiscal Year
  100
   80
   60
   40     90      81
                        48    60      54
   20                                          39     30      34    33       34
    0
         1996 1997 1998 1999 2000 2001 2002 2003 2004 2005




Processing Timeliness

The time to process cases decreased from FY 2000 to FY 2005. Some of this
decrease is attributable to a decrease in the mean time for the Regional Offices
to send the file to the Office of Appeals from approximately 38 days to 20 days.
Additionally, staff noted that the decrease in the number of cases received
contributed to eliminating the backlog, which allows for the cases to be
assigned as they are received.


                         Mean Times by Fiscal Year
   120     97.8
                       74.4         69.1       69.9         64.4
    90
                                                                      46.2
    60     37.6
                       26.7        30.0        21.2        20.7
    30                                                                19.6
     0
            2000       2001        2002        2003         2004      2005


            Days to Receive Regional Office File           Days to Close Appeal


Pending Cases

As the number of cases received decreased, the number of cases pending at the
end of the year also decreased. The cases pending at the end of FY 2005
represent about 1 month of cases received.




                                           5
                  Pending Cases at Year-end by Fiscal Year
  1000
   900
                 921
   800                  861
   700                         750
   600                                664                  635
   500
                                             524    527
   400    442                                                     422
   300
   200
                                                                         228
   100
      0
          1996 1997 1998 1999 2000 2001 2002 2003 2004 2005




Of the 228 cases pending at the end of FY 2005, 161 either were suspended or
were awaiting the Regional Office file. The mean amount of time that cases
were pending at the end of the year decreased from 67.4 days in FY 2000 to
45.1 days in FY 2005. Fifteen cases were pending more than 6 months at
September 30, 2005, as compared with 43 at September 30, 2000.


RESULTS ACT

The Agency's FY 2005 Performance and Accountability Report (PAR) states as a
goal to "issue appeals decisions within 90 median days of receipt of the appeal
of the [RD's] dismissal of the charge." The calculation measures the time to
process sustained appeals from receipt of the Regional Office file to the closing
of the case, including time to consider a motion for reconsideration, but
excluding time that a case was suspended. Reasons that cases are suspended
include remands to the Regional Office and related litigation.

Calculation

The report the Office of Appeals used to calculate the median understated the
number of days for cases that were sustained after a motion for
reconsideration. In those cases, the time to process the original denial was
excluded. This affected two cases during FY 2005, but did not affect the
median calculation. The Director stated that the problem was corrected.



                                        6
Performance Measure

As shown in the table below, the Office of Appeals' performance measure
reported in the PAR was changed in 3 of the last 4 years.

                     Office of Appeals Results Act Goal

FY     Goal                        Result                      Goal Attained
2005   90 Median Days              83 Median Days                   Yes
2004   60% w/in 90 days            36% w/in 90 days                  No
2003   60% w/in 110 days           63% w/in 110 days                Yes
2002   60% w/in 120 days           70% w/in 120 days                Yes
2001   60% w/in 120 days           68% w/in 120 days                Yes
2000   60% w/in 120 days           54.5% w/in 120 days               No

The PAR stated that the FY 2004 change was made to the measure to increase
the expectations of the office. The Director stated that the goal was changed to
a median in FY 2005 to parallel the Agency's other Results Act measures that
use medians.

The Office of Appeals met its Results Act goal in 4 of the last 6 years. In FY
2004, the actual performance (36 percent) was significantly short of the goal.
The PAR attributed this to an influx of controversial and legally complex cases
requiring more time to consider and the importance of the cases to the public.
The Director stated that the Office of Appeals does not control the complexity of
the cases it receives.

The revised goal is easier to meet. The 83 median days is well below the goal of
90 median days. If the 2004 goal was used, the Agency would not have met
the 60 percent within 90 days; only 56 percent of sustained appeals were
closed within 90 days.




                                       7
                                                                  ATTACHMENT


                              APPEALS PROCESS

When a ULP case is dismissed, the Regional Office sends a letter to the parties.
A copy of the letter is sent to the Office of Appeals by e-mail. The letter states
that the charging party may appeal to the General Counsel within 14 days of
the letter and that the charging party may request an extension of time to file.

Extensions of time may be filed either by mail, fax, or through the Extension of
Time System (EOTS). EOTS allows the charging party to enter a code and
submit the request through the Agency's Web site. EOTS informs the Office of
Appeals and the Regional Office by e-mail that a request has been submitted.
The Office of Appeals then grants or denies the extension. During FY 2005, 56
percent of extensions of time requested were received through EOTS.

When an appeal is received, the Director's secretary opens it, identifies that an
appeal was filed, and passes the appeal to the docket clerk. The docket clerk
enters the appeal into ACTS. A member of the support staff prepares a letter
acknowledging receipt of the appeal. This letter is sent to the Regional Office
and all parties. Processing the appeal is then halted pending receipt of the
Regional Office file. The Regional Office attaches a Comment on Appeal to the
Regional Office file stating why the Regional Office believes that the appeal
should be denied.

After the Regional Office file is received, the managing attorney, assisted by a
staff attorney on a 2-month rotation, reviews the appeal and the Regional Office
file and determines the case priority. If the decision to deny the appeal is
obvious, the managing attorney has the authority to deny the appeal.

If the appeal is to be further investigated, the managing attorney assigns the
appeal to a supervisor, who assigns the case to an attorney. The attorney
reviews the appeal and entire contents of the Regional Office file, with
particular attention to the Regional Office's Final Investigative Report and
Agenda Minute. The attorney also does additional legal research.

If the review reveals that gaps exist in the Regional Office investigation, the
supervisor has delegated authority to remand the case to the Regional Office. If
the case is to be remanded, a memorandum is sent to the RD with the Regional
Office file and an attachment discussing the information needed. The case is
suspended pending the Regional Office's response.

At this point, the RD may determine that the charge has merit and revoke the
dismissal. If the dismissal is revoked, the Office of Appeals closes the appeal
and sends a letter to the parties informing them that the appeal is moot due to
the revocation of the dismissal. Alternatively, the RD may return the Regional
Office file and the additional information requested to the Office of Appeals for
further processing.


                                        8
After the completion of the investigation, the attorney prepares a letter and
recommendation for the supervisor. If the case is a simple denial, the
supervisor has the authority to execute the denial. A letter denying the appeal
is sent to the parties.

If the attorney and supervisor determine that the appeal is to be sustained or is
a novel or high profile case, a memorandum is prepared for the General
Counsel explaining why the case should be sustained or denied. The
memorandum is routed through the Director or Deputy Director. If the
Director or Deputy Director agrees with the recommendation, the case is placed
on an Agenda.

An Agenda meeting is tentatively scheduled with the General Counsel for every
Thursday. The Agenda includes a quorum of the General Counsel and his staff
and staff from the Division of Enforcement Litigation, Operations-Management,
and the Office of Appeals. The Agenda participants are given a package
containing the memorandum and a copy of the appeal, comment on appeal,
Final Investigative Report, and the charge. The memorandum is also e-mailed
to the Regional Office.

If the General Counsel agrees to deny the appeal, the final letter is prepared
and sent to the parties. If the appeal is sustained, a General Counsel Minute is
prepared, explaining the facts and the legal reasoning used in sustaining the
appeal. The General Counsel Minute is sent to the Regional Office along with
the Regional Office file. A separate letter is sent to the parties stating that the
appeal was sustained. The Regional Office would then issue complaint if the
case is not settled.

The charging party has 14 days from the date of the denial of an appeal to file a
motion for reconsideration. If a motion is received, it is assigned to the
supervisor and attorney that worked on the case. The supervisor and attorney
make a recommendation that is reviewed and approved by the Director or
Deputy Director. If the recommendation is to reverse the denial of the appeal,
the case goes to an Agenda with the General Counsel. If the appeal decision
was made in an agenda, the Director or Deputy Director decides whether the
new information is novel enough to send to the General Counsel for a new
agenda; otherwise, the decision is made by the Director or Deputy Director. If
the motion is denied, a charging party may file additional motions only if new
evidence is submitted that became available after the decision on appeal.

After the case is closed, the attorney or supervisor fills out a case progress
sheet with dates to be entered into ACTS by the docket clerk. The Regional
Office file is returned to the Regional Office. The documents are scanned into
an electronic file and the case file is sent to the Case Records Unit 30 days
after the appeal is closed.



                                        9
APPENDIX
    UNITED STATES GOVERNMENT
    National Labor Relations Board
    Office of Appeals


    Memorandum
    To:        Jane E. Altenhofen, Inspector General
    Prom:      Yvonne T. Dixon, Director
1              Office of Appeals
    Subject:   Comments on Draft Report "Office of Appeals Survey"
               (OIG-AMR-53)


               Thank you for the opportunity to review this draft report. Our only comment relates to the
               problem identified with the calculation of processing days on cases which were sustained
               after a motion for reconsideration. As you point out, in two cases where the processing of the
               case was suspended after the motion was received, the Appeals Case Tracking System
               (ACTS) excluded time to process the original denial from the final calculation of processing
               days.
               In December 2004 we asked ITB to correct ACTS so that processing days for cases sustained
               after a motion was filed would include both the time to process the original denial and the
               time elapsed after the motion was filed. The modification correctly calculated the total
               processing days for the one case at that time which involved a sustained motion. As it
               happened, that case was not suspended after the motion was filed. The two cases which you
               identifl in the report, which were suspended after the motion was filed, arose later.
               I am pleased to report that ITB has now corrected the problem which you identified, and
               ACTS now reports the correct processing days for cases sustained after a motion and where a
               suspension took place after the motion was filed.
